U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: John M. Custin v. Rob Asaro-Angelo, Commissioner, New Jersey
Department of Labor and Workforce Development, et al.
S.Ct. No. 21-155
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 28,
2021, and placed on the docket on August 4, 2021. The government’s response is due on
September 3, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 4, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0155
CUSTIN, JOHN M.
ROB ASARO-ANGELO, COMMISSIONER, NEW
JERSEY DEPARTMENT OF LABOR AND
WORKFORCE DEVELOPMENT, ET AL.

JOHN M. CUSTIN
P.O. BOX 5631
CHRISTIANSTED, VI 00823

